i.i

®q

. ; N

I

l,

No.

mi

In The

Supreme Court of tfje Mntteb States!

PETER N. MYMA,
Petitioner,
vs.

WENDY A. WROE
Respondent.

On Petition for a Writ of Certiorari to
the Indiana Supreme Court
PETITION FOR A WRIT OF CERTIORARI

PETER N. MYMA
7620 Niles Center Rd.
Skokie, IL 60077-2764
(812) 416-1011

[
f

1

QUESTIONS PRESENTED

1.

Whether joint child custody is a

constitutionally protected, rebuttable presumption of
equal rights.
2.

Whether a clear and convincing

standard is required to disparage a fundamental
liberty interest.
3.

Whether a state custodial solution

should be subject to a higher standard of scrutiny, to
insure it is narrowly tailored to protect all family
members' liberty interests equally.

;

V

11

PARTIES AND RELATED CASES

Petitioner here, father, and
respondent/appellant below is Peter N. Myma, a
resident of the State of Illinois.
Respondent here, mother, and
petitioner/appellee below is Wendy A. Wroe, a
resident of the State of Indiana.

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED
TABLE OF CONTENTS

1

m

TABLE OF AUTHORITIES

v

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE PETITION... 13
I. The Case Affects Nearly Every American
Today..............................................................

13

II. The Case Affects a Constitutional Liberty
Interest.............................................................

14

III. A Constitutional Liberty Interest Deserves
Equal Protection.............................>................... 15
IV. No Equal Protection Without Equal Due
Process.............................................................

18

IV

V. Parents' and Children's Liberty Interests Can
Not Be Disparaged by the States

22

VI. Standards Narrow State Incursion on
Familial Liberty Interests.........................

26

CONCLUSION

36

APPENDIX 1: CITATIONS

37

APPENDIX 2: TRIAL COURT FINAL DECREE 47
APPENDIX 3: DENIAL OF APPEAL
REHEARING

59

APPENDIX 4: DENIAL OF PETITION TO
TRANSFER

61

V

TABLE OF AUTHORITIES

Cases
Addington v. Texas, 441 US 418 (1979)

31, 32

Amanda C. u. Case, 749 N.W.2d 429, 438 (Neb. 2008)
16
Anderson v. Youngblood (In re V.A.), 29 N.E.3d 178
(Ind. Ct. App. 2015).............................

22

Bell v. Burson, 402 US 535 (1971).......

23, 28

Betts u. Brady, 316 US 455, 462 (1942)

22

Bush v. Gore, 531 US 98 (2000)............

26

Celotex v. Catrett, 477 US 317 (1986).

30

Craig v. Boren, 429 US 190 (1976).......

19

De La Cruz v. Tormey, 582 F. 2d 45 (9th Cir. 1978) 30
Ex parte Devine, 398 So. 2d 686 (Ala. Supreme Court
20

1981)

Falatovics v. Falatovics, 15 N.E.3d 108, 110 (Ind. Ct.
App. 2014).......................................................

27

Griswold v. Connecticut, 381 US 479 (1965)

22, 26

Guardianship of Simpson, 67 Cal.App.4th 914, 936
(79 Cal.Rptr.2d 389, 1998)....................................... 25

VI

Hanson v. Spolnik, 685 NE 2d 71 (Ind App. Ct. 1997)
17
In re Custody of Smith, 969 P. 2d 21 (Wash. Sup. Ct.
34

1998)..........................................................................
In re JRD, 169 SW 3d 740 (Tex App Ct. 3rd Dist.
2005)

30, 32, 33, 34

In re Marriage of Carlsson, 163 Cal. App. 4th 281,
282, 77 Cal. Rptr. 3d 305, 305 (2008)................... 20
In re Murchison, 349 US 133 (1955)......................... 27
In re Welfare of Sumey, 94 Wash.2d 757, 762, 621
P.2d 108 (1980).......................................................... 34
Irvine v. California, 347 US 128 (1954)................... 21
Leisure v. Wheeler, 828 NE 2d 409 (Ind. App. Ct.
2005)............................................................................ 28
Maddux v. Maddux, 40 N.E.3d 971 (2015).............. 31
May v. Anderson, 345 U. S. 528, 533 (1953)........... 15
Meisberger v. Bishop, No. 39A01-1402-DR-76, Court
of Appeals of Indiana, 15 NE 3d 653 (2014)

10

Meyer v. Nebraska, 262 U. S. 390, 399 (1923)

15

O'Hartigan v. Department of Personnel, 118 Wash.2d
111, 117, 821 P.2d 44 (1991)...........................

34

Olmstead v. United States, 211 US 438 (1928)

18

People v. Manning, 778 N.E.2d 1222, 334 Ill. App.3d

882 (2002)

2, 28

Vll

14

Pierce v. Society of Sisters, 268 US 510 (1925)

Prince v. Massachusetts, 321 U. S. 158, 166 (1944). 16
Quilloin v. Walcott, 434 US 246 (1978).................

15

Reed v. Reed, 404 US 71 (1971)..............................

19

Reynolds v. Sims, 377 U. S. 533, 555 (1964)........

17

Roe v. Wade, 410 U.S. 113, 155, 93 S.Ct. 705, 35
L.Ed.2d 147 (1973)................................

34

Santosky v. Kramer, 455 US 745 (1982)

passim

Simpson v. Brown Cty., 860 F.3d 1001, 1006 (7th Cir.
2017).......................................................................

29

Skinner v. Oklahoma, 316 U. S. 535, 541 (1942)

15

Stanley u. Illinois, 405 US 645 (1972)

passim

Troxel v. Granville, 530 US 57 (2000).... 15, 22, 23, 33
Turney v. Ohio, 273 U. S. 510, 273 U. S. 532...

27

Washington v. Glucksberg, 521 US 702 (1997)

34

Wisconsin v. Yoder, 406 US 205 (1972)...........

13, 25

Yick Wo v. Hopkins, 118 US 356 (1886)...........

17, 21

Rules
Federal Appellate Rule 10(c).......................

10

Federal Rule of Appellate Procedure 10(c)

44

Indiana Appellate Rule 31(A)......................

10, 43

vm
Indiana Evidence Rule 106

4, 41

Indiana Parenting Time Guidelines, Section 1(A)(3)
21
Indiana Rule of Evidence 201(C)

5

Indiana Trial Rule 43(A)............

5

Indiana Trial Rule 53.1(A).........

27, 41

Indiana Trial Rule 53.1(E).........

..4, 41

Indiana Trial Rule 60(B)............

11, 27

Indiana Trial Rule 63(B)(2)........

42

Constitutional Provisions
Article 7, Section 3 of the Indiana Constitution......10
Declaration of Independence.........................

23

Fifth Amendment...........................................

22

Fourteenth Amendment................................

37

Indiana Constitution, Article 1, Section 12

37

Indiana Constitution, Article 1, Section 23

38

Indiana Constitution, Article 7, Section 6..

38

Ninth Amendment..........................................

37

Statutes
750 ILCS 60/220(a)(l)

2

IX

IC § 31-14-13-2.........................

38

IC § 31-14-13-2(7)....................

7

IC § 31-15-7-5...........................

27, 39

IC § 31-17-2-6...........................

.. 4, 39

IC § 34-25.5-7-1........................

39

IC § 5-14-3-1..............................

10

Indiana Senate Bill 87 (2019)

27, 39

Treatises
Andrew Schepard J.D., The Evolving Judicial Role in
Child Custody Disputes: From Fault Finder to
Conflict Manager to Differential Case
Management, 22 U. ARK.LITTLEROCKL. REV.
395 (2000).................................................................... 13
Pew Research Center, Dec. 12, 2019, “Religion and
Living Arrangements Around the World,” p. 20.. 13
Timothy Grail, Custodial Mothers and Fathers and
Their Child Support: 2015 Current Population
Reports, Issued January 2018. U.S. Department of
Commerce, Economics and Statistics
Administration Publication P60-262, page 3

14

X

U.S. Department of Health & Human Services,
National Vital Statistics Reports: Births,
Marriages, Divorces, and Deaths: Provisional Data
for 2009 vol. 58, no. 25, 1................................

13

What Judges Really Think About Fathers:
Responses to Court-Commissioned Judicial Bias
Surveys,” 31 Transitions 4 (Nov. 2013)

16

1
PETITION FOR A WRIT OF CERTIORARI
Peter Myma respectfully petitions for a writ of
certiorari to review the judgment of the Indiana
Supreme Court in this case.

OPINIONS BELOW
None are published and are contained in the
appendix.
JURISDICTION
The liberty interest of child custody was
disparaged by denying petitioner the constitutional
guarantees of due process and equal protection. The
jurisdiction of this court is thus invoked under 28
U.S.C. § 1257.
CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED
See Appendix 1.

2
STATEMENT OF THE CASE
A year after caring for his parents, father met
mother. Father, an Illinois resident and mother, and
Indiana resident have two children, now ages six and
ten. Since childbirth, father, an educator, raised the
children and rebuilt their house, while mother
preferred working in retail.
Mother's contemporaneous communications
express satisfaction with father's care of the children
and work on their house, and show no sign of
discord. Unbeknown to father, mother began
cohabitating with her Indianapolis boyfriend during
the many months she was frequently absent from the
marital household.
After mother stopped supporting the family in
June 2016, she demanded father leave Indiana with
the children. After destroying father's car, in August
2016 mother and boyfriend forcibly removed and
secreted12 the children from father in Illinois. The
children were not seen or located for six weeks.
Father finally managed to talk to daughter in the
principal's office in an Indiana school 70 miles away
from where mother resided with boyfriend. Daughter
was heard complaining of mistreatment, which
included routine eight hour confinement and the
inability to use the bathroom, eat or pray. Father
filed for Illinois divorce the next day.
1 A violation under 750 ILCS 60/103(7)(v) and for which a threeweek emergency order of protection under 750 ILCS
60/220(a)(l) was issued in an emergency session of Illinois
Domestic Violence Court; see Rock v. Rock, 2015 IL App (3d)
140114-U .
2 Secretion defined in People v. Manning, 778 N.E.2d 1222, 334
Ill. App.3d 882 (2002) .

3
Mother presented and rested her 2016 case in
rural Brown County where she had the case
transferred, but did not live, and father had no
means of reaching without a car. Unlike mother,
father was not allowed to call witnesses, present
evidence and make and rest his case. Father did
eventually manage to get this hearing reopened in
late 2017.
Father was variously called by mother "lover
boy," "ass," "idiot," "insane," "shit," "knucklehead"
and a "dumbfuck," but never as "father" or "daddy" in
front of the children, and "You been doin' this for two
years, C'mon!" and for simply asking to speak to the
children by name, "Do you realize that you're doing
the same insane act every time you call. And it
doesn't get you what [visitation] you want." At trial,
the court stated that "there will be no excuse for
somebody cursing someone on the phone in front of
the kids." Mother excused this language out of
frustration at father's persistence in trying to reach
his children. Mother admitted after first denying
that she demanded father beg for permission to
speak to his own children.
All Father's calls, voicemails, texts, Skype
attempts, letters and gifts to the children were
blocked. Father's many motions addressing the
denial of his visitation were never heard at any time.
Unable to move the trial process forward, and
in light of mother's denial of father's visitation,
father filed a habeas corpus petition under IC § 3425.5-7-1 in January 2018, to justify the legal basis of
the children's separation from their former sole
caregiver without due process. The trial court
ignored this petition, and it is still outstanding
today. The Chief Administrative Officer of the

4
Indiana Supreme Court repeatedly refused to move
the case forward under Indiana Trial Rule 53.1(E).
Later in 2018, father filed an Indiana Trial
Rule 63(B)(2)(b), petition to have the judge show
cause to the Indiana Supreme Court why he should
not be removed from the case for refusing to perform
the duties of his office3 and have a Judge pro
tempore appointed in his stead. The trial court
responded by refusing to further hear, rehear,
conclude or rule on the preliminary hearing, then
still in progress.
A new judge set the cause for final hearing in
January 2019.
Before father arrived at the courthouse,
mother's first exhibit alleged "abduction". After
father's objection, it was found that neither the court
nor father was given any advance notice of her
evidence or witnesses. Rather than excluding the
evidence, the trial was immediately continued. "To
prevent trial by ambush," of father, "The Court finds
that the Respondent's [father's] fundamental
fairness argument concerning the exhibits has
merit.4" The court also stated that evidence
previously filed need not be resubmitted.
The court ordered mother to comply with
father's request for documents and witnesses,
mother issuing only a generic release shortly before
trial resumed, but providing no specific information,
much of which in her sole possession, such as her
occult diaries, and evidence under Rule 106. The
court refused to compel evidence in mother's

3 i.e., under IC § 31-17-2-6.
4 " Order Resetting Final Hearing," filed February 4, 2019.

5
possession or give father time to discover it from
other sources.
Mother repeatedly requested and was granted
judicial notice5 of previous court testimony and
filings while excusing her frequent repetition of.
issues due to her and counsels' poor memory. The
court sustained many of father's objections as to
mother's repetitious presentation, finding that in
some instances, issues were presented four times.
The trial was highly irregular, with the court
sustaining many, but not all, of father's objections to
mother's misrepresentation of documents, pictures,
testimony and depositions. Proffered court
documents from mother were found not to be from
any court, pictures were found to misrepresent
locations and unsworn out-of-court statements6 were
read into the record. Mother repeatedly asked to
modify or withdraw evidence that she had submitted
when the evidence contradicted her sworn testimony.
Father needed to engage mother in a colloquy over
25 questions and answers to get a single yes/no
response, the court stating "And that if mother would
just answer the questions directly, the proceeding
would go a lot quicker." while denying father's
numerous requests for equal trial time.
The court became stymied that father
repeatedly objected to mother rendering her negative
opinions of father outside of her personal knowledge.
The court's need to know a fact it felt overrode the
foundation that allowed a witness to testify to that
fact, even though the witness' presence was denied
B Under Indiana Rule of Evidence 201(C).
6 "In all trials the testimony of witnesses shall be taken in open
court..." (Indiana Trial Rule 43(A).

6
by court order and she did not claim personal
knowledge.
Mother stipulated to going "quite far" to "lie
to" obtain the children from father, while describing
his "harm" to the children as making the children, in
her contemporaneous words: "very active, bright,
joyous, and resourceful."
Mother opined as to the lassitude of father
while stipulating to have contemporaneously written
that: "He's been a real one-man-repair-andrenovation force to be reckoned with!"
The court recognized father's complaints as to
the time consuming nature of mother's evasive
testimony as "Point taken. Point taken. Point taken."
and that mother should not defer questions to her
boyfriend that she herself could readily answer,
because "he's never going to appear."
After several unsuccessful years compelling
the appearance of this witness, without notice and by
surprise on the last trial day mother called him.
Father's objections to his appearance and the probity
of the negative outcomes in the stipulated teenage
pregnancy, suicide and imprisonment of boyfriend's
children, as well as triple foreclosure and falsified
bankruptcy petition7 of boyfriend's custodial
household were summarily dismissed. Mother's
violations of protection orders of both children and
property, and her false testimony thereto, though a
statutory factor in custodial assignment, was
similarly deemed insignificant.

7 Boyfriend claimed mother as his wife and father's two children
as his own minor son and daughter.

7
The court found that mother's violation of an
earlier protective order and her conflicting testimony
thereto was not probative because domestic violence
under Illinois law should not be considered by an
Indiana court: "I don't know nothing about that,"
despite being a statutory factor under Indiana's best
interest standard, IC § 31-14-13-2(7).
The court found probative, however mother's
allegation of surveillance against father, which
mother asserted as an opinion of what she overheard
during her eavesdropping of father and neighbor.
During father's cross-examination of mother,
mother stated that the February 4, 2019 court order
required father to have submitted all his evidence
before the first trial day on January 3, 2019, and
that this rule did not apply to mother. Mother
maintained that the impeaching text messages on
mother's phone thus could no longer be mentioned,
the court agreed, denying use of dispositive text
messages that had been previously filed with the
case.
Father sought to establish objective indices of
mother's care. Over mother's objections, she
eventually stipulated to having transferred the
children to a failing school, was late one out of three
days, and had missed so many school days that they
had to be made up, which she failed to do. The court
did not find probative that father had a perfect ontime record in the excellent schools he enrolled the
children in.
Mother's case initially alleged child neglect by
father. After mother testified to leaving the children
unattended in the bathtub, and having the children
return with stolen property from unknown locations

8
in the neighborhood, mother then argued that
father's involvement and tutoring of the children was
"not letting them be children," too overbearing,
accusing father of trying to be too "perfect," his
medical advocacy and emphasis on healthy habits
"overwhelming," and that he was "trying to make
somebody out of them." Mother sent pre-school age
son, who she described as autistic, into $100 a month
daycare, after quitting her job, rather than spend
time with him during the day.
Mother repeatedly alleged that father's
character was deficient for his legal advocacy in
confronting what father saw as pervasive due
process denial. At trial, the court found father's
litigation history "not helpful," being collateral to the
issue of child custody, "...father's filings are not
unusual." Father is representing himself and is doing
what he believes to be correct in his representation."
Father's role as sole caregiver of the children
and the outcomes under his care were not factually
traversed. Father's background as an educator, his
centering of the children's lives around "learning"
and the outstanding outcomes of the children under
his care were also not factually traversed by mother.
Father was never shown in any recitation to
have harbored any ill will to mother or boyfriend;
phone calls and 140 pages of text messages display
father's clinical concision when confronted with the
drunken obloquy8 of mother. Mother justified
denying father visitation because he declined to
8 "Zolaaaaaa? Is that what you're going to do? Instead of saying
Helooo, you'll be quiet? C'mon talk to me. Agin', you been doing
this for two years, man. Two years. Isn't that saying
somethin'?"

9
engage in casual conversation with her and her
boyfriend.
Over father's objections to gender-defamation,
mother emotively summarized her case as it is
"setting a bad example" in father caring for his
children, particularly for son, "Does he want Leif to
grow up to be a man?" his unmanly caring for
children means he "doesn't like to work" and for
"being supported" solely to "sit on his butt" and
"enjoy life" "all day."
Father was allotted only the last half of the
last afternoon of four trial days while allowing
mother to present an additional rebuttal case during
his time.
Father requested joint custody and mother
sought and was granted maximum exclusion of
father from the children's lives.
Overriding father's objection as to absentee
mother's lack of personal knowledge, the court
concluded that mother's opinion would outweigh her
own contemporaneous communications to the
contrary, and also outweigh witness testimony with
contemporaneous personal knowledge, and to deny
father any custody.
The court issued a final decree. The single
greatest factor it used to deny father the custody of
his children was his litigation efforts. Additionally,
the court stated that mother's stipulated surveillance
of father could be excused because she was using it to
support her opinion that she was being surveilled.
Mother was also granted custody of the
children because she prevented father's contact with
them, the court finding that telephonic visitation was

10
not visitation, and therefore mother's vulgar and
abusive termination of it had no import to the
instant case.
The court did not acknowledge father's sole
care of the children for the first six years of their life,
finding that a father staying home with the children,
and rehabilitating their home was not "gainful
employment."
Father would never see the children or have
any substantial contact again.
Father timely filed a notice of appeal, under
Indiana's constitutional absolute right to appeal
under Article 7, Section 3 of the Indiana
Constitution.
Father could not afford attorneys or trial
transcripts, instead moving the court under Indiana
Appellate Rule 31(A)9 and its analogue, Federal
Appellate Rule 10(c) to prepare a statement of
evidence.
Under Indiana's version of FOIA, APRA10,
father requested recordings of every trial session.
The court refused. Father was granted the
recordings after an appeal to the Indianapolis Public
Access Counselor. Mother never requested these
recordings.
Father transcribed nearly 700 pages of every
word of the final hearing and many salient portions
of the preliminary hearings. The trial and appeal
courts struck this as too accurate, because the trial
court opined and the appellate court concurred, it
9 Meisberger u. Bishop, No. 39A01-1402-DR-76, Court of
Appeals of Indiana, 15 NE 3d 653 (2014).
10 Access to Public Records Act, IC § 5-14-3-1 et seq.

11
would require an inordinate time, and to which it
had only limited recollection, and over three months,
to review.
Father then moved the court to certify his 100page summary statement of evidence. Mother again
objected because father's summary statement too
closely tracked the trial transcript and the
recordings which only father had requested.
Mother provided a statement of her case,
rearguing it from memory and that did not track the
trial, nor did she factually traverse father's account,
providing instead a list of objections to father's case,
these objections not being made at trial. Maintaining
now that it had an outstanding memory, the trial
court immediately certified both disparate versions.
Only father's statement of evidence included conduct
of the court and preserved trial objections for
appellate error review.
Mother's disputation of the trial record lasted
through much of 2019.
Father filed a comprehensive appeal brief,
replete with extensive citations to the trial record,
case authority as well as Indiana and federal law.
The appellate court complained of numerous formal
matters such as pagination and word count
certificate and rejected father's appeal without
reaching the merits. A request for reconsideration on
the merits was considered frivolous.
Transfer was denied to the Indiana Supreme
Court, once for father attaching previous trial
rulings, and for being not filed on a Federal and
Illinois holiday, both of which were not recognized in
Indiana.

12
Subsequent trial court proceedings filed by
father, including a petition to modify custody, and an
Indiana Trial Rule 60(B) motion for relief from
judgment, were timely filed but never heard.
The factual record of the case is inadequately
developed because the trial record shows father
never being fully and fairly heard at any stage of the
trial or appeal.

13
REASONS FOR GRANTING THE PETITION
I. The Case Affects Nearly Every
American Today
"The history and culture of Western
civilization reflect a strong tradition of parental
concern for the nurture and upbringing of their
children. This primary role of the parents in the
upbringing of their children is now established
beyond debate as an enduring American tradition."
Wisconsin v. Yoder, 406 US 205 (1972).
More than a million children in America
annually are involved in divorce11. Half of US
marriages end in divorce12. The US leads the world
in single parent households, and at a rate over three
times the international average13. Indiana is in the
top three US states for divorce14. "In 2016, about 4 of
every 5 (80.4 percent) of the 13.6 million custodial
parents were mothers, while 1 of every 5 custodial
parents were fathers (19.6 percent). " 15

11 Andrew Schepard J.D., The Evolving Judicial Role in Child
Custody Disputes: From Fault Finder to Conflict Manager to
Differential Case Management, 22 U. ARK.LITTLEROCKL.
REV. 395 (2000)
12 U.S. Department of Health & Human Services, National
Vital Statistics Reports: Births, Marriages, Divorces, and
Deaths: Provisional Data for 2009 vol. 58, no. 25, 1
13 Pew Research Center, Dec. 12, 2019, “Religion and Living
Arrangements Around the World,” p. 20
14 Excluding statistically insignificant results, January 2020
data, retrieved 6/24/2020 at:
https://www.census.gov/library/visualizations/interactive/marri
age-divorce-rates-by-state.html
15 Timothy Grail, Custodial Mothers and Fathers and Their
Child Support: 2015 Current Population Reports, Issued

14
No father will elect to have children that he
will 80% lose, doubling the number of childless
women since the 1970s16 alone.
Almost every child comes from, is integrated
into or is closely associated with other children that
are products of divorce.
These longstanding statistics as to gender
disparity are irreconcilable with equal protection
under the 14th amendment and its due process
guaranty.
In no other case before this court are more
rights, more deeply rooted, of greater consequence,
and more profoundly affected then when state courts
are either unwilling or unable to grant equal
protection of the fundamental liberty interests of
both parents and their children.
The notorious nature of these custodial
awards is, as would be expected, widely exploited by
those it favors, while being oblivious to those making
the awards, all going to the wholesale destruction of
the American family and the nation it is the bedrock
of.
II. The Case Affects a Constitutional
Liberty Interest
"The child is not the mere creature of the
State." Pierce v. Society of Sisters, 268 US 510 (1925),
January 2018. U.S. Department of Commerce, Economics and
Statistics Administration Publication P60-262, page 3
16 U.S. Department of Commerce, US Census Bureau, Percent
Childless, Women Aged 30-44: 1976-2018, accessed on
6/24/2020 at:
https://www.census.gov/content/dam/Census/library/visualizatio
ns/time-series/demo/fertility/figurel.pdf

15
and thus, "We have recognized on numerous
occasions that the relationship between parent and
child is constitutionally protected." Quilloin v.
Walcott, 434 US 246 (1978).
This constitutional interest must be protected
by the courts: "The private interest here, that of a
man in the children he has sired and raised,
undeniably warrants deference and, absent a
powerful countervailing interest, protection." Stanley
v. Illinois, 405 US 645 (1972) at page 651.
The degree of protection must be
commensurate with the nature of the right being
protected: "The liberty interest at issue in this case—
the interest of parents in the care, custody, and
control of their children— is perhaps the oldest of the
fundamental liberty interests recognized by this
Court." Troxel u. Granville, 530 US 57 (2000) at 65.
This liberty interest is of greater dimension
than property rights and must be treated with
greater, constitutional, deference: 'The Court has
frequently emphasized the importance of the family.
The rights to conceive and to raise one's children
have been deemed "essential," Meyer v. Nebraska,
262 U. S. 390, 399 (1923), "basic civil rights of man,"
Skinner v. Oklahoma, 316 U. S. 535, 541 (1942), and
"[r]ights far more precious .. . than property rights,"
May v. Anderson, 345 U. S. 528, 533 (1953).' Stanley
v. Illinois, 405 US 645 (1972) at 651.
III. A Constitutional Liberty Interest
Deserves Equal Protection
This Court did not say that the liberty interest
resided in solely a parent, or the best parent alone,
but in both parents equally: "It is cardinal with us

16
that the custody, care and nurture of the child reside
first in the parents, whose primary function and
freedom include preparation for obligations the state
can neither supply nor hinder." Prince u.
Massachusetts, 321 U. S. 158 (1944) at 166.
The liberty interest is shared by all members
of the family: '...both "'parents and their children
have a recognized unique and legal interest in, and a
constitutionally protected right to, companionship.'"
In other words, the substantive due process right to
family integrity '"protects not only the parent's right
to the companionship, care, custody, and
management of his or her child, but also protects the
child's reciprocal right to be raised and nurtured by
[his or her] biological. . . parent.'" It is clear,
therefore, that both parents and their children have
cognizable substantive due process rights to the
parent-child relationship.' Amanda C. v. Case, 749
N.W.2d 429, 438 (Neb. 2008).
“A study conducted in 2004 found that
although the ‘tender years doctrine’ had been
abolished many years earlier, a majority of Indiana
family court judges still supported it and decided
cases coming before them consistently with it. A
survey of judges in Alabama, Louisiana, Mississippi
and Tennessee found a clear preference among
judges for maternal custody in general. 17”
Chief Justice Burger represents the still
prevalent view that "I believe that a State is fully
justified in concluding, on the basis of common
human experience, that the biological role of the
17 “What Judges Really Think About Fathers: Responses to
Court-Commissioned Judicial Bias Surveys,” 31 Transitions
4 (Nov. 2013).

17
mother in carrying and nursing an infant creates
stronger bonds between her and the child than the
bonds resulting from the male's often casual
encounter." Stanley v. Rlinois, 405 US 645, Burger
dissent at 665.
Mother's argument reprised Burger by
nakedly alleging that a father staying at home to
raise the children was "being supported" solely to "sit
on his butt" and "enjoy life" "all day" and "doesn't
like to work" and "set a bad example." to the
children. Mother represents the former stay-at-home
father as odium to son, "Does he want Leif to grow
up to be a man?" The court concurred in its decree,
describing a father's care and tutoring of his children
as "ungainful." "This gender-biased generalization is
ludicrous and an affront..." Hanson v. Spolnik, 685
NE 2d 71 (Ind App. Ct. 1997).
The application as well as the law applied is
subject to higher scruitiny: "Though the law itself be
fair on its face and impartial in appearance, yet, if it
is applied and administered by public authority with
an evil eye and an unequal hand..." signifying the
importance of the application as of the law itself,
"...so as practically to make unjust and illegal
discriminations between persons in similar
circumstances, material to their rights, the denial of
equal justice is still within the prohibition of the
Constitution." Yick Wo u. Hopkins, 118 US 356
(1886).
'The right to vote is protected in more than the
initial allocation of the franchise. Equal protection
applies as well to the manner of its exercise."
Reynolds u. Sims, 377 U. S. 533, 555 (1964).

18
IV. No Equal Protection Without Equal
Due Process
Even when given the last half of the last
afternoon of four trial days, stay at home fathers do
not have a sufficient track record in the court's eyes,
so the due process of hearing father was "frivolous"
and a "delay:" "Procedure by presumption is always
cheaper and easier than individualized
determination. ..., [W]hen it explicitly disdains
present realities in deference to past formalities, it
needlessly risks running roughshod over the
important interests of both parent and child. It
therefore cannot stand." Stanley u. Illinois, 405 US
645 (1972) at 657.
"The extent to which procedural due process
must be afforded the recipient is influenced by the
extent to which he may be 'condemned to suffer
grievous loss.’" Santosky u. Kramer, 455 US 745
(1982) at 758. Loss of the companionship and care of
the children is one such fundamental loss of a liberty
interest.
The Burger presumption (supra) "protecting"
the "tender gender" is an example of "Experience
should teach us to be most on our guard to protect
liberty when the Government's purposes are
beneficent......The greatest dangers to liberty lurk in
insidious encroachment by men of zeal, well-meaning
but without understanding" (Brandeis, dissent in
Olmstead v. United States, 277 US 438 (1928)) of
equal protection.
In light of the overwhelming courts' preference
in assigning custody by gender, the trial court in
almost every instance accorded mother due process
and rulings where father's weren't even worth

19
considering because "...it may be argued that...
fathers are so seldom fit that Illinois need not
undergo the administrative inconvenience of
inquiry." Also, "by denying him a hearing and
extending it to all other parents whose custody of
their children is challenged, the State denied Stanley
the equal protection of the laws guaranteed by the
Fourteenth Amendment." Stanley v. Illinois, 405 US
645 (1972) at 649.
The court could find no time to hear father but
encouraged the ever-changing legal and factual
posture of mother. It is not a good use of the court's
time to hear father, as being the wrong gender
simply won't get custody in the Brown Circuit Court.
"Indeed, one might fairly say of... the Due Process
Clause in particular, that they were designed to
protect the fragile values of a vulnerable citizenry
from the overbearing concern for efficiency and
efficacy that may characterize praiseworthy
government officials no less, and perhaps more, than
mediocre ones. Stanley u. Illinois, 405 US 645 (1972)
at 656.
"To give a mandatory preference to members
of either sex over members of the other, merely to
accomplish the elimination of hearings on the merits,
is ... forbidden by the Equal Protection Clause of the
Fourteenth Amendment; and ... may not lawfully be
mandated solely on the basis of sex" Reed v. Reed,
404 US 71 (1971).
"Decisions following Reed similarly have
rejected administrative ease and convenience as
sufficiently important objectives to justify genderbased classifications." Craig v. Boren, 429 US 190
(1976).

20
No court can prejudge the outcome for reasons
of efficiency because: "His right to a hearing does not
depend upon the will, caprice or discretion of the
trial judge who is to make a decision upon the
issues. ... But harmless error analysis has no place
here. The trial court's [premature] termination of the
trial rendered an assessment of prejudice
impossible." (In re Marriage of Carlsson, 163 Cal.
App. 4th 281, 282, 77 Cal. Rptr. 3d 305, 305 (2008).
Father should have been given the majority of
the trial time because his is the stronger de facto
burden: "By requiring fathers to carry the difficult
burden of affirmatively proving the unfitness of the
mother, the presumption may have the effect of
depriving some loving fathers of the custody of their
children, while enabling some alienated mothers to
arbitrarily obtain temporary custody." Ex parte
Devine, 398 So. 2d 686 (Ala. Supreme Court 1981) at
696.
At no point was father fully and fairly heard.
Even when father managed to get the preliminary
hearing reopened, the court subsequently "cancelled"
it without resolution. The court delayed the custody
case for almost four months while mother
complained of finding another lawyer, and for most
of a year while the court refused to set the matter for
hearing, until the Indiana Supreme court intervened.
The court refused father a single day to obtain from
alternate sources evidence which mother withheld.
Father was repeatedly surprised, by mother's
evidence and witnesses, and as well as by the court
itself. Father was denied the witnesses he gave
notice of, never received the evidence he requested,
nor had the time to develop more than a rudimentary
case. Father detrimentally relied on the court

21
confirming that earlier filings already providing
notice. The trial court denied father the use of earlier
filed evidence and the benefit of judicial notice the
court gave mother.
Troxel demonstrated that states cannot
subsume federal rights to their "best interests"
prerogative. This case demonstrates the outcome of
the state's disregard for federal rights, and the need
for more clarity to protect them in state court. More
than anything else, it is the court's own conduct
which should "shock this case into the protective
arms of the Constitution" Irvine v. California, 347
US 128 (1954) at 138. That mother would repeatedly
change legal and factual positions during the trial is
overshadowed by the court doing the same.
The Indiana courts' approach to equality is in
appearance, but presumptive in operation (Yick Wo
v. Hopkins, 118 US 356 (1886)). The Indiana courts
are under a Burger paternalistic obligation to
"protect" the "tender gender" (Burger, supra) against
the "unnatural" interest of a stay-at-home-father
raising his own children.
The Indiana Courts believe that the seeking of
due process is a ground to deny it. It construes
father's desire to be fairly heard as an attack on the
"tender gender" of its presumptive prerogative.
Father was at fault for mother's "abusive"
denial of his calls because the court reasons that
telephonic visitation18 is not parenting time19.

18 Indiana Parenting Time Guidelines, Section 1(A)(3).
19 'We disagree with mother's implication that telephone
communication is not a form of parenting time. To the contrary,
the Parenting Time Guidelines emphasize that "[r]egular phone

22
None of the above comports remotely with
equal protection or due process, not the least for
involving a fundamental liberty interest.
V. Parents' and Children's Liberty
Interests Can Not Be Disparaged by
the States
The right of the children to both of their
parents, as the right of each parent to their children,
is an inalienable liberty interest which States cannot
deny or disparage.
"Due process of law is secured against
invasion ... against state action in ... the Fourteenth
[Amendment]." Betts v. Brady, 316 US 455, 462
(1942).
'In sum, the Ninth Amendment simply lends
strong support to the view that the "liberty"
protected by the Fifth and Fourteenth Amendments
from infringement by the ... States is not restricted to
rights specifically mentioned in the first eight
amendments.' Griswold v. Connecticut, 381 US 479
(1965).
'The Fourteenth Amendment... includes a
substantive component that “provides heightened
protection against government interference with
certain fundamental rights and liberty interests.”
Troxel v. Granville, 530 US 57 (2000) at 65.
Every decision about parents' rights do not
cite "a" parent in the singular,' "As we have
contact is an important tool in maintaining a parent/child
relationship [,]" and it is a violation of the Guidelines to block
these communications. Ind. Parenting Time Guideline §
1(A)(7).' Anderson v. Youngblood (In re V.A.), 29 N.E.3d 178
(Ind. Ct. App. 2015).

23
explained, the Due Process Clause does not permit a
State to infringe on the fundamental right of parents
to make child rearing decisions simply because a
state judge believes a "better" decision could be
made.' Troxel v. Granville, 530 US 57 (2000) at 73.
In the underlying case, as in Troxel, the state
has not only superordinated its best interest
prerogative over the fundamental liberty interests of
the children and their parents, but it has diminished
due process and equal protection in order to do so.
'In my view, a right of parents to direct the
upbringing of their children is among the
"unalienable Rights" with which the Declaration of
Independence proclaims "all men . . . are endowed by
their Creator." And in my view that right is also
among the "othe[r] [rights] retained by the people"
which the Ninth Amendment says the Constitution's
enumeration of rights "shall not be construed to deny
or disparage."' Scalia dissent in Troxel v. Granville,
530 US 57 (2000) at 91.
Nowhere in the Constitution or in state laws
can rights be upheld by proxy. Father's fundamental
liberty interest cannot be diminished by assignment
to mother. Especially when a lengthy decree opines
on a range of factual matters collateral to the central
issue of child custody, yet fails to find fact as to
father being unfit. The decree makes non-collateral
factual findings only as to mother's dishonesty and
her abuse of "idiot" father and the children by
denying them their visitation. "In Bell v. Burson, 402
U. S. 535 (1971) we found a scheme repugnant to the
Due Process Clause because it deprived a driver of
his license without reference to the very factor
(there, fault in driving, here, fitness as a parent) that
the State itself deemed fundamental to its statutory

24
scheme." Stanley v. Illinois, 405 US 645 (1972) at
653.
Nor can the harm in abrogating the children's'
rights to their father be cured by spending double
time with their mother.
Nor can the state constructively disparage
rights by entering conclusions outside of a finding of
facts thereto. The underlying decree demonstrates
the court's disdain, but not any non-collateral
evidence, against father(s).
The court cannot diminish father's liberty
interest to child custody by the assertion of matter
unrelated to custodial care, namely father's litigation
posture. The trial court is estopped from doing so
after having declared at trial that father was entitled
to his own vigorous representation, father
detrimentally relying on this proper stance, but then
the trial court elevating this collateral issue to the
single most important reason to deny father custody.
The court's memory, opined at trial as
"outstanding," would fail, in mother's very first
exhibit introducing the term "abduction," and then
assigning prejudice to father, compounding the error
by elevating it into a reason to deny father custody.
The court similarly cannot disparage father's
liberty interest by mother's tainted stipulation to
have surveilled on father in order make the
allegation of same. The disingenuous character of
mother's allegation is more probative than the
substance of it. The fact that the court chose to
elevate this collateral matter, which axiomatically
cannot affect children with that which they have no
knowledge of, is probative as to the unequal
treatment of the parties and their liberty interests.

25
Moreover, the states cannot disparage father's
liberty interest in visitation with the children by
assigning fault to father for mother impeding access
to his children. The Indiana courts have given "[T]he
uncooperative custodial parent... a perverse
incentive. A parent with physical custody could
obtain sole custody by usurping the other parent's ...
rights..." (Pierce v Pierce, 620 N.E.2d 726, 731 (Ind.
Ct. App. 1993)).
States are often at odds with the liberty
interests and equality they didn't grant, but must
enforce: "Even more markedly than in Prince,
therefore, this case involves the fundamental
interest of parents, as contrasted with that of the
State," Wisconsin v. Yoder, 406 US 205 (1972).
Indiana will not respect "distant" federal
rights if mother's secretive child snatching,
considered domestic violence in neighboring Illinois,
is categorically ignored by the trial court: "I don't
know nothing about that." It is improper to preclude
relevant evidence because the court does not want to
spend the time or that it may go against the
presumptively favored party: "Given the
overwhelming relevance of the issue, it is impossible
to avoid the conclusion that the consumption of time
as a reason to avoid it is simply untenable. A trial
judge's discretionary authority in the management of
evidence does not extend to arbitrarily refusing to
consider the most salient issue[s]..." Guardianship of
Simpson, 67 Cal.App.4th 914, 936 (79 Cal.Rptr.2d
389, 1998). Nor can the trial judge diminish father's
ability to be heard in more than just l/8th of the trial
time.
"Where there is a significant encroachment
upon personal liberty, the State may prevail only

26
upon showing a subordinating interest which is
compelling," The law must be shown "necessary, and
not merely rationally related, to the accomplishment
of a permissible state policy." Griswold v.
Connecticut, 381 U. S. 479, at 497 (1965), citations
omitted, Goldberg, J., concurring. Reprising outdated
gender roles or picking the winner-takes-all parent
would not meet any level of scrutiny as a legitimate
state interest.
The state does not have a legitimate interest
in awarding custody by gender, sidelining millions of
parents. In the underlying case, father was given
fewer rights to his children than O. J. Simpson was
after the California Appeal Courts (supra) allowed
evidence of Simpson's domestic violence in the
murder of Nicole Brown and Ronald Goldman.
VI. Standards Narrow State Incursion on
Familial Liberty Interests
Standards define equality by having visible
signposts that apply to all. The farther apart these
signposts are the more subjective the decision
becomes. "[Wjhether the use of standardless manual
recounts violates the Equal Protection and Due
Process Clauses. With respect to the equal protection
question, we find a violation of the Equal Protection
Clause." Bush v. Gore, 531 US 98 (2000). This lack of
ballot box standards can lead to the temptation to set
higher standards to prevail for an undesired voting
bloc.
The trial court capriciously applied its
discretion in determining what due process is and
how it could be unequally doled out between the two
parties. Higher standards would diminish this
temptation: "Every procedure which would offer a

27
possible temptation to the average man as a
judge . . . not to hold the balance nice, clear, and true
between the State and the accused denies the latter
due process of law. Tumey v. Ohio, 273 U. S. 510, 273
U. S. 532." In re Murchison, 349 US 133 (1955).
The Indiana trial courts have awarded
themselves absolute discretion in divorce,
constitution and statutes to the contrary
notwithstanding. The division of property is
regulated under IC § 31-15-7-5 by whether it was
acquired during marriage, as in most states. Yet in
practice, the Indiana courts have created the
notorious "one-pot" theory that overrides the statute:
"It is well settled that in a dissolution action, all
marital property goes into the marital pot for
division, whether it was owned by either spouse
before the marriage..." Falatovics v. Falatovics, 15
N.E.3d 108, 110 (Ind. Ct. App. 2014). The lessor
interest of property is presumed equal, but the
greater interest in child custody is not, as seen in the
failure of Indiana Senate Bill 87 (2019), the outcome
of the underlying case, and in the vast majority of
similar cases.
The Indiana courts' discretion has gone so far
as to deny due process by simply ignoring motions
before the court, such as father's Habeas Corpus
petition, relief under TR 60(B), and even an entire
preliminary hearing. This denial is rubber-stamped
by the Indiana Supreme Court's Office of Judicial
Administration, as it has done in countless of father's
TR 53.1(A) motions.
The court made no factual finding as to the
fitness of father. The court arbitrarily opined on a
range of collateral matters, none of which go to the
fitness of father (cf Bell v. Burson, 402 US 535

28
(1971)). Thus "...that where facts necessary to
sustain the issues are not found by the trial court
and the findings are silent as to such facts, they are
regarded as not proved." Miller v. Ortman, 235 Ind.
641, 665, 136 N.E.2d 17, 31 (1956).
The court's factual findings against mother
were not collateral in nature. Material factors in
assigning custody include abuse, which the decree
identified as mother's vulgar denial of contact
between father and the children. Mother's snatching
of the children and violation of a protective order
thereto is another major statutory factor of unfitness:
"Child snatching is one of the most serious and
damaging forms of child abuse that exists. The
severity of the trauma of child snatching is one of the
few points that behavioral scientists agree upon,
almost without exception." People u. Manning, 778
N.E.2d 1222, 334 Ill. App.3d 882 (2002). The
abhorrence of mother's actions is "cured" by the trial
court blaming father for mother's "inflammatory"
terminology.
Her theft under the guise of a court order she
requested is another act of character deficiency
compounding her ever-changing testimony.
Character is an important issue as forward-looking
conduct (Leisure u. Wheeler, 828 NE 2d 409 (Ind.
App. Ct. 2005)) in determining the children's future.
The question in granting certiorari before this
court goes to whether higher standards would have
forestalled the irregularities in this case, and by
extension to millions of similarly situated custodial
disputes every year, another having occurred in the
reading of this sentence alone.

29
There can be little doubt of a different
outcome, if there was a strong presumption of joint
custody, being rebutted only by clear and convincing
evidence, and resulting in a custodial solution
surviving a higher standard of scrutiny for being
narrowly tailored, as would allow the equal
protection of all members' rights of the former
family. The right to have the case heard in front of a
jury, as done in Texas, would further forestall the
routine abrogation of these rights by Burger judges.
The presence of even any one of these
elements would have given the trial court pause. The
trial court would have been much harder pressed to
justify its typical winner-takes-all custodial solution.
Uniformity across the states would be a further
benefit.
In assessing standards, the courts typically
engage in an Eldridge inquiry: "The general test for
determining what process is due and when was set
out in ... Mathews20 identified three factors to be
balanced: first, the private interest at stake; second,
the risk of erroneous deprivation and the value, if
any, of additional procedural safeguards; and third,
the government's countervailing interests." Simpson
u. Brown Cty., 860 F.3d 1001, 1006 (7th Cir. 2017)21.
"The current court-created" low evidentiary
standards combined with the expansive "sound
discretion" "...allows a trial court holding to severely
curtailing parental rights to stand so long as there is
some evidence upon which to base its findings..."
20 Mathews v. Eldridge, 424 U.S. 319, at 335 (1976).
21 Where father's litigation posture was relevant to the trial
court, then Brown County Officials' routine extortion of its
citizens impeaches the fairness of its court.

30
resulting in "a significant risk of erroneous
deprivation of the most sacred of liberty interests of
parents and children," In re JRD, 169 SW 3d 740
(Tex App Ct. 3rd Dist. 2005).
Mother's allegations, made as opinion outside
of personal knowledge by an absentee mother, do not
even establish a prima facie case (Celotex v. Catrett,
477 US 317 (1986)). Father's case, from the little that
was heard, was based on mother's own
communications and testimony, as well as
documentary records, all stipulated to. The courts
discretion cannot be used to blur standards of
admissibility and probity to unequally favor a
presumptive party.
The trial court "[Explicitly disdains present
realities in deference to past formalities, it
needlessly risks running roughshod over the
important interests of both parent and child." In re
JRD, 169 SW 3d 740 (Tex App Ct 3rd Dist. 2005),
when it entertained 'outdated misconceptions
concerning the role of females in the home rather
than in the "marketplace and world of ideas...' De La
Cruz u. Tormey, 582 F. 2d 45 (9th Cir. 1978). In
mother's and the trial courts' eyes, father raising his
children while rehabilitating their home was an
intolerable, indolent indulgence for a man.
"Given the weight of the private interests at
stake, the social cost of even occasional error is
sizable." Santosky u. Kramer, 455 US 745 (1982) at
764, which elevated standards would reduce. The
cost to society of mass parental deprivation is not
outweighed by the "benefit" of double exposure to an
exclusionary parent.

31
'The individual should not be asked to share
equally with society the risk of error when the
possible injury to the individual is significantly
greater than any possible harm to the state."
Addington u. Texas, 441 US 418 (1979). There is no
legitimate harm to the state in joint custody outside
of its pecuniary interest in administering child
support against a non-custodial parent.
There is benefit to the state in a strong
presumption of joint custody, because this would
reduce animus and litigation. The entire underlying
4-day trial case was devoted to mother's expression
of animus to claim greater custodial rights. The need
to make wild claims also diminishes the parents'
future ability to work together in sharing custody.
Under stricter standards, father would not
have to rebut the presumption of maternal fitness.
Mother would need to show, how the outcomes of
father's sole caregiving was harmful, or how her
erasure of father benefitted the children. Father
never requested sole custody and had always tried to
engage absentee mother more in the children's lives.
"Whether the loss threatened by a particular
type of proceeding is sufficiently grave to warrant
more than average certainty on the part of the
factfinder turns on both the nature of the private
interest threatened and the permanency of the
threatened loss." Santosky v. Kramer, 455 US 745
(1982) at 758. The loss of a parent's influence during
formative years is an "[Ijrreparable harm to the
Children." Maddux v. Maddux, 40 N.E.3d 971 (2015).
"Therefore, I would urge that the standard of
proof in the trial court be re-examined. The standard
of proof instructs the fact finder on the degree of

32
confidence our society believes it should have in the
correctness of factual conclusions for any given
adjudication," In re JRD, 169 SW 3d 740 (Tex Ct
App, 3rd Dist. 2005)22.
The risk is diminished when "The United
States Supreme Court "has mandated an
intermediate standard of proof — 'clear and
convincing evidence' — when the individual interests
at stake in a state proceeding are both 'particularly
important' and 'more substantial than mere loss of
money.'" In re JRD, 169 SW 3d 740 (Tex Ct App, 3rd
Dist. 2005)23.
"[A] stricter standard of proof would reduce
factual error without imposing substantial fiscal
burdens upon the State. As we have observed, 35
States already have adopted a higher standard by
statute or court decision without apparent effect on
the speed, form, or cost of their factfinding
proceedings." Santosky v. Kramer, 455 US 745 (1982)
at 767.
The standard of proof should be for this court
to determine: “Moreover, the degree of proof required
in a particular type of proceeding "is the kind of
question which has traditionally been left to the
judiciary to resolve." "In cases involving individual
rights, whether criminal or civil, '[t]he standard of
proof [at a minimum] reflects the value society places
on individual liberty. t M » Santosky v. Kramer, 455
US 745 (1982) at 756.

22 Citing Santosky v. Kramer, 455 U.S. at 754-755, 102 S.Ct.
1388 (in turn citing Addington v. Texas, 441 U.S. 418, 99 S.Ct.
1804, 60 L.Ed.2d 323 (1979)).
23 Id. at 756, 102 S.Ct. 1388 (citing Addington, 441 U.S. at 424,
99 S.Ct. 1804 (1979)).

33
"The opinions of the plurality ... recognize such
a right, but curiously none of them articulates the
appropriate standard of review. I would apply strict
scrutiny to infringements of fundamental rights.
Here, the State of Washington lacks even a
legitimate governmental interest... " Troxel v.
Granville, 530 US 57 (2000) at 80, Thomas
concurrence.
Loss of custody is not trivial: "Although
custody and possession determinations as between
parents are not as permanent or drastic as
termination of parental rights, those issues can
severely limit the relationship and have the potential
to profoundly impair the fundamental liberty
interest of parents and children in the parent-child
relationship." In re JRD, 169 SW 3d 740 (Tex App
Ct. 3rd Dist. 2005).
"Nor would an elevated standard of proof
create any real administrative burdens for the
State's factfinders. ... New York also demands at
least clear and convincing evidence in proceedings of
far less moment... as they must have to suspend a
driver's license." Santosky v. Kramer, 455 US 745
(1982) at 767.
The two orders higher evidentiary standard
applied to the theft of a $1 candy bar teaches the
factfinder to believe that a lifetime of parent-child
consortium is of zero value to the state: "[F]unction
of a standard of proof, as that concept is embodied in
the Due Process Clause and in the realm of
factfinding, is to 'instruct the factfinder concerning
the degree of confidence our society thinks he should
have in the correctness of factual conclusions for a
particular type of adjudication.' " Santosky v.

34
Kramer, 455 US 745 (1982) at 785 (see also In re
JRD, 169 SW 3d 740 (Tex App Ct. 3rd Dist. 2005)).
"What is the state interest in separating
children from fathers without a hearing designed to
determine whether the father is unfit in a particular
disputed case?" Clearly not a legitimate parens
patriae protection of rights: "We observe that the
State registers no gain towards its declared goals
when it separates children from the custody of fit
parents. Indeed, if Stanley is a fit father, the State
spites its own articulated goals when it needlessly
separates him from his family." Stanley v. Illinois,
405 US 645 (1972) at 652.
"[T]he removal of a child from the parents is a
penalty as great [as], if not greater, than a criminal
penalty . .. ." Santosky v. Kramer, 455 US 745 (1982)
at 769.
"Where a fundamental right is involved, state
interference is justified only if the state can show
that it has a compelling interest and such
interference is narrowly drawn to meet only the
compelling state interest involved." In re Custody of
Smith, 969 P. 2d 21 (Wash. Sup. Ct. 1998)24.
'As we stated recently in Flores, the
Fourteenth Amendment "forbids the government to
infringe . . . [on] ‘fundamental’ liberty interests at all,
no matter what process is provided, unless the
infringement is narrowly tailored to serve a
compelling state interest." 507 U. S., at 302.'
Washington v. Glucksberg, 521 US 702 (1997).
24 Omitted citations: See Roe v. Wade, 410 U.S. 113, 155, 93
S.Ct. 705, 35 L.Ed.2d 147 (1973); O'Hartigan v. Department of
Personnel, 118 Wash.2d 111, 117, 821 P.2d 44 (1991); In re
Welfare of Sumey, 94 Wash.2d 757, 762, 621 P.2d 108 (1980).

35
The Indiana Courts, and all similarly situated
state courts, must not be allowed to disparage the
familial liberty interests of children and their
parents by denying the strong presumption of
equality in joint custody, with anything outside of
clear and convincing evidence, and by narrowly
tailoring custodial orders that withstand higher
scrutiny for equal protection and due process.

36

CONCLUSION

The petition for a writ of certiorari should be
granted.

Respectfully submitted,

PETER N. MYMA

/s/
/Peter Myma/

Peter Myma
7620 Niles Center Rd.
Skokie, IL 60077-2764
Pro Se
June 25, 2020

Case Filing Code: M4S1GBCMLFAB04J7

